     Department of Homeland Security





     FEMA Should Recover $881,956 of Ineligible Funds
   and $862,983 of Unused Funds Awarded to St. Charles
           Parish School Board, Luling, Louisiana




DD-13-07                                     February 2013

                                  OFFICE 01- INSPECTOR GENl::RAL
                                        D~pi\nmrnt       of Hom damI S~curity


                                                      FE S 27 ?O13
MEMORANDUM FOR:




FROM:

                                        Office of    Emerg~ncy       Management Oversight

SUBJECT:                                ffMA Should Recover $881,956 of Ineligible Funds and
                                        $862,983 of Unused Funds Awarded ta St. Charles Pari5h
                                        School Board, Luling, Louisiono
                                        FEMA Disaster Numbers 1603-, 1786-, and 1792-DR-lA
                                        Audit Report Number DD-13-07

We audited Public Assistance (PAl gr~ n t funds ~warded to St, Charles Parish School
Board, l ulin g, louisiana (Schoo l Board) (PA Number 089 0042C-OO). Our audit objective
was to d~t~rmin~ whether the school Board dccounted for and expended Feder~1
Emergency Management Agency (FEMAI gr ant funds according to Federal regulations
and FEMA guidelines.

Th e Loui~iana Governor's Office of Homeland Security and Emergency Preparednes~
(GOHSEP), d FEMA grantee, awarded the School Board $6,5g million for damages
resulting from three federally declared disa5ters:

•   Hurricane Katrina (1603-DR-LA). which occurred August 29, 2005
•   Hurric~ne Gustav (1786-DR-LA), whi ch occurred September 2, 2008
•   Hurricane Ike (1792-DR-LA), w hich occurred September 13, 2008

The audit covered the period Augu~t 29, 2005, through November 3, 2011, the cutoff
date of our audit, and include d a review of 16 large and 10 smal l projects totaling
$6.16 mi llion, or 94 percent of the total awards (see exhibit),1 Table 1 shows
in form~t ion for each disa5ter ~ nd the gross ~ nd net ~wa rds before ~nd ~fter insura nce
reductions for all projects and for our audit scope.




I f,~ [". 1 (eiju l"tion, in df,,,I.1 the lime of th" db",t,,,, _,,,I Ihe IJ(S" proj<.'<t thresho ld at $55,5 00 for
HUfrir:ane K;,I(in, "nd $6Q.9!XJ for    Hu"ic"n~' Gu_,t.v .nd Ike_
                              OFFICE OF INSPECTOR GENERAL 

                                   Department of Homeland Security 




                               Table 1. Disaster-Specific Information
                                                                Large      Small
              Gross Award        Insurance       Net Award     Projects   Projects    Federal
  Disaster      Amount          Reductions        Amount       Awarded    Awarded    Cost Share
   1603 –
   Katrina     $6,290,574        $(1,085,243)    $5,205,331      11         28          100%
   1786 –
   Gustav        1,483,686         (123,950)      1,359,736       5         45          90%
   1792 –
     Ike             10,220                  0        10,220      0          2          90%
     All
  Disasters    $7,784,480        $(1,209,193)    $6,575,287      16         75

   Audit
   Scope       $7,211,263        $(1,046,994)    $6,164,269      16         10

We conducted this performance audit between November 2011 and June 2012 pursuant to the
InspectorfGeneralfActfoff1978, as amended, and according to generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based upon our audit objective. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based upon our audit objective. We conducted this audit
applying the statutes, regulations, and FEMA policies and guidelines in effect at the time of the
disasters.

We interviewed FEMA, GOHSEP, and School Board officials; reviewed judgmentally selected
project costs (generally based on dollar value); and performed other procedures considered
necessary to accomplish our objective. We did not assess the adequacy of the School Board’s
internal controls applicable to grant activities because it was not necessary to accomplish our
audit objective. We did, however, gain an understanding of its method of accounting for
disaster-related costs and its procurement policies and procedures.


                                             BACKGROUND

The School Board, established in 1879, is a legislative body authorized to govern the public
education system of the parish of St. Charles, Louisiana. The School Board is responsible for
making public education in grades K–12 available to the residents of St. Charles Parish. Services
include providing instructional personnel, materials, and facilities; administrative support;
business services; system operations; plant maintenance; and bus transportation. The School
Board provided service to 9,721 students as of February 2010.


   www.oig.dhs.gov                                2                                  DD-13-07
                          OFFICE OF INSPECTOR GENERAL 

                                 Department of Homeland Security 



On August 29, 2005, Hurricane Katrina’s high winds and heavy rain downed trees and damaged
structures throughout School Board properties. Storm damage included uprooted trees,
broken and hanging tree limbs, and damage to school buildings and facilities. Likewise, on
September 2, 2008, Hurricane Gustav’s high winds and rain damaged several of the School
Board’s classrooms, buildings, and facilities. Damage also included major destruction to the
trees and vegetation on the properties. Hurricane Ike, declared on September 13, 2008, caused
additional damage to the School Board’s facilities and grounds.


                                      RESULTS OF AUDIT

The School Board accounted for FEMA grant funds on a project-by-project basis as Federal
regulations require. However, it did not always follow Federal regulations, including those for
procurement of contracts. As a result, we question the following $881,956 as ineligible costs:

•	 $156,529 of improper contracting costs for Hurricane Katrina work (finding A) (net of
   $308,700 also questioned in finding B),
•	 $722,836 of unsupported costs for Hurricanes Katrina and Gustav (finding B), and
•	 $2,591 of duplicate costs for Hurricane Katrina (finding C).

Additionally, FEMA should deobligate $862,983 in unused Federal funds and put those funds to
better use ($853,100 for Hurricane Katrina and $9,883 for Hurricane Gustav) (finding D). The
majority of the findings in this report occurred because GOHSEP, as the grantee, should have
better managed its responsibilities. Therefore, FEMA should require GOHSEP to submit an
accounting to FEMA as soon as possible for all completed School Board projects and ensure
that—

•	 FEMA receives information sufficient to close completed School Board projects by June 2013,
•	 The School Board is aware of and follows Federal procurement standards for future
   federally declared disasters, and
•	 The School Board maintains adequate documentation of costs for future federally declared
   disasters (finding E).

Finding A: Contracting Procedures

The School Board did not comply with Federal procurement standards in awarding disaster-
related contracts for Hurricane Katrina. As a result, full and open competition did not always
occur, and FEMA has no assurance that all contract costs were reasonable. Federal
procurement standards at 44 CFR 13.36 require subgrantees to, among other things—




   www.oig.dhs.gov                             3	                                    DD-13-07
                          OFFICE OF INSPECTOR GENERAL 

                                 Department of Homeland Security 



•	 Perform procurement transactions in a manner providing full and open competition except
   under certain circumstances. One allowable circumstance is when there is public exigency
   or emergency for the requirement that will not permit a delay resulting from competitive
   solicitation. (13.36(c)(1) and (d)(4)(i)(B))
•	 Conduct a cost or price analysis in connection with every procurement action, including
   contract modifications. (13.36(f)(1))
•	 Maintain a contract administration system to ensure that contractors perform according to
   the terms, conditions, and specifications of their contracts or purchase orders. (13.36(b)(2))
•	 Negotiate profit as a separate element of the price for each contract in which there is no
   price competition. (13.36(f)(2))
•	 Avoid the use of time-and-material type contracts unless a determination is made that no
   other contract is suitable, and provided that the contract includes a ceiling price that the
   contractor exceeds at its own risk. (13.36(b)(10)(i) and (ii))
•	 Include in all contracts applicable provisions listed in 44 CFR 13.36(i), such as those for
   records retention, legal remedies, and termination for cause.

The School Board did not follow these standards in awarding $4.1 million in contracts for
Hurricane Katrina work. However, after the hurricane, the School Board’s superintendent
enacted the School Board’s Emergency Purchase Policy to dispense with competitive bidding to
immediately stabilize the local school system and community. Generally, we do not question
costs based on noncompliance with Federal procurement regulations when lives and property
are at risk. However, once the danger passes, subgrantees should fully comply with Federal
contracting regulations. On September 15, 2005, the School Board reopened the parish’s
schools, but continued to use two noncompetitive time-and-material contracts for various
debris removal services until January 2006. Therefore, we question $465,229 as ineligible
contract costs that the School Board incurred under these contracts after exigent circumstances
ended on September 15, 2005. The $465,229 questioned as ineligible contract costs includes
$308,700 of unsupported costs also questioned in finding B. Therefore, to avoid questioning
the same costs twice, we are recommending disallowance of $156,529 of improper contract
costs, which is the $465,229 less the $308,700 questioned in finding B. If FEMA allows the
$308,700 of unsupported costs in finding B, it should add back the $308,700 to costs
recommended for disallowance in Recommendation 1, which relates to finding A.

School Board officials said that they continued to use noncompetitive time-and-material
contracts after the schools opened because they were not fully aware of Federal procurement
regulations, and that FEMA and GOHSEP officials arrived at the School Board after it had
completed most of the repairs and reopened schools. School Board officials also said that
FEMA and GOHSEP officials assigned to assist them constantly changed for 2 to 3 years after
Hurricane Katrina, which contributed to their lack of understanding and awareness of the
procurement regulations. At our exit conference, FEMA officials disagreed with the finding and
said that, although schools resumed classes by September 15, 2005, the School Board’s


   www.oig.dhs.gov                              4	                                   DD-13-07
                           OFFICE OF INSPECTOR GENERAL 

                                  Department of Homeland Security 



resources might not have been available to fully support normal operations. GOHSEP and
School Board officials also disagreed with this finding because School Board officials claim that
they are unsure if they paid for debris removal services after schools reopened and will review
their accounting records for accuracy of the totals questioned.

As for Hurricane Gustav, School Board officials generally followed Federal procurement
standards. Before Hurricane Gustav, the School Board solicited proposals and competitively
awarded pre-positioned contracts for future emergency work. GOHSEP officials told us that
after Hurricane Katrina, they began an aggressive program to educate GOHSEP subgrantees on
Federal regulations, including those for procurement; therefore, subgrantee compliance should
improve with each subsequent disaster.

Finding B: Unsupported Costs

The School Board’s claim included $722,836 of unsupported contract labor and force account
material costs. The invoices for these costs did not include supporting documentation, such as
timesheets, work logs, contract agreements, rate schedules for contract labor or equipment,
and invoices or receipts for material purchases. Federal regulations at 44 CFR 13.20(b)(2)
require subgrantees to maintain records that adequately identify the source and application of
funds provided for financially assisted activities. Therefore, we question the following costs
totaling $722,836 as unsupported ($591,928 for Hurricane Katrina and $130,908 for Hurricane
Gustav):

•	 $582,064 claimed under several projects for work related to time-and-material contracts
   (Hurricane Katrina Projects 1632, 1693, 2133, 2152, and 3572 totaling $451,156 plus
   Hurricane Gustav Projects 698 and 780 totaling $130,908). The School Board did not
   provide timesheets, work logs, contract agreements, and contract rate schedules for these
   costs. This occurred because, according to School Board officials, they issued verbal
   contracts for Hurricane Katrina work. Additionally, for both Hurricanes Katrina and Gustav,
   the School Board did not maintain adequate procurement records to support contract
   billings. Without adequate labor and equipment records and contract agreements, there is
   no assurance that contractors are billed according to the contracted rates and for approved
   activities.
•	 $140,772 claimed under Project 2391 for material purchases (Hurricane Katrina). The
   School Board did not provide copies of the invoices and receipts for perishable food items.
   School Board officials said that they misplaced the folder that contained all the invoices and
   receipts and will continue to search for the documentation.

FEMA and GOHSEP officials agreed with this finding. However, School Board officials disagreed
with the finding, saying that they had submitted invoices to GOHSEP officials multiple times to
support the material costs incurred. School Board officials said that they understand their



   www.oig.dhs.gov                              5	                                    DD-13-07
                          OFFICE OF INSPECTOR GENERAL 

                                 Department of Homeland Security 



responsibility to maintain source documentation for contract costs incurred, and they will
continue to look for applicable documentation to support all costs.

Finding C: Duplicate Costs

The School Board inadvertently claimed $2,591 of costs twice under Hurricane Katrina for
Project 2159. The duplicate costs included invoices for $2,141 to remove and replace floor tiles
and $450 to repair a chain link fence. Therefore, we question $2,591 as ineligible, duplicate
costs. FEMA officials agreed with this finding. GOHSEP and School Board officials disagreed
with this finding and said that they will review their accounting records to determine whether
the costs are duplicates.

Finding D: Unused Federal Funds

GOHSEP did not provide closeout information to FEMA in a timely manner for eight projects
that the School Board had completed. As a result, $862,983 of Federal funds that could have
been put to better use remained obligated. As table 2 shows, the School Board completed
work on the eight projects and claimed $3,364,891, which was $862,983 less than the total
amount FEMA estimated and approved for the eight projects. The School Board completed the
majority of these projects 5 years ago for Hurricane Katrina and 3 years ago for Hurricane
Gustav.

                        Table 2. Completed Projects With Unused Funds
                                                 Net            Net
                                Date           Award          Amount             Unused
     Project Worksheet       Completed        Amount          Claimed             Funds
     Katrina
             1632            12/6/2006        $ 113,716      $ 101,028           $ 12,688
             2133            5/12/2006            133,968        115,892           18,076
            2159              9/7/2006             98,380          27,417          70,963
            2659              2/8/2006             61,820          39,093          22,727
            3022             8/13/2008          2,697,208      1,984,907          712,301
            3572             1/17/2006            794,402         778,057          16,345
      Katrina Subtotals                       $3,899,494      $3,046,394         $853,100
     Gustav
             698             9/28/2008         $ 243,700     $ 238,572           $  5,128
            3297             8/10/2009             84,680          79,925           4,755
      Gustav Subtotals                         $ 328,380     $ 318,497           $ 9,883
            Totals                            $4,227,874      $3,364,891         $862,983




   www.oig.dhs.gov                             6                                     DD-13-07
                          OFFICE OF INSPECTOR GENERAL 

                                 Department of Homeland Security 



According to 44 CFR 206.205(b)(1), grantees must submit an accounting to the FEMA Regional
Administrator of eligible costs for each approved large project “as soon as practicable after the
subgrantee has completed the approved work and requested payment.” We consider 6 months
after the subgrantee has completed the approved work and requested payment a reasonable
amount of time for the grantee to complete its reviews of costs claimed and to submit an
accounting of eligible costs to FEMA. Therefore, FEMA should deobligate $862,983 of unused
Federal funds and put those funds to better use. In addition, FEMA should require GOHSEP to
submit an accounting to the FEMA Regional Administrator as soon as possible for all projects
for which the School Board has completed the approved work and requested payment.
GOHSEP and School Board officials agreed that unused funds should be deobligated. FEMA
officials agreed with this finding and said that they will take immediate steps to review all
project worksheets for the School Board that contain unused funds.

Finding E: Grant Management

The majority of the findings in this report occurred because GOHSEP, as the grantee, should
have better managed its responsibilities. According to 44 CFR 13.40(a), grantees are
responsible for managing and monitoring the day-to-day operations of grant- and subgrant-
supported activities to ensure compliance with applicable Federal requirements. Additionally,
grantees must ensure that subgrantees are aware of requirements imposed upon them by
Federal statute and regulation (44 CFR 13.37(a)(2)).

GOHSEP did not obtain necessary supporting documentation from the School Board for
invoiced costs and did not maintain supporting documentation received from the School Board
for reimbursements already processed. As a result, the School Board’s funding may be
jeopardized for otherwise eligible costs. We also cited instances in this report in which GOHSEP
did not provide closeout information to FEMA in a timely manner and instances in which the
School Board did not comply with Federal procurement regulations because it was not aware of
or did not understand them. It is not enough for GOHSEP to merely advise subgrantees of
Federal regulations. Consistent with Federal regulations, GOHSEP is responsible for managing
and monitoring each project, program, subaward, function, or activity (44 CFR 13.40(a)).
Further, the FEMA-State agreement for Hurricanes Katrina and Gustav requires GOHSEP to
comply with the requirements of laws and regulations contained in the RobertfT.fStaffordf
DisasterfRelieffandfEmergencyfAssistancefAct, Public Law 93-288, as amended, 42 U.S.C. §5121,
et seq., and its related Federal regulations.

As stated in finding A above, GOHSEP officials told us that after Hurricane Katrina, they began
an aggressive program to educate GOHSEP subgrantees on Federal regulations, including those
for procurement; therefore, subgrantee compliance should improve with each subsequent
disaster.




   www.oig.dhs.gov                             7                                     DD-13-07
                          OFFICE OF INSPECTOR GENERAL 

                                 Department of Homeland Security 




                                     RECOMMENDATIONS 


We recommend that the Regional Administrator, FEMA Region VI: 


Recommendation #1: Disallow $156,529 of improper contracting costs for Hurricane Katrina,
unless FEMA grants an exemption for all or part of the costs as provided for in 44 CFR 13.6(c)
and Section 705(c) of the RobertfT.fStaffordfDisasterfRelieffandfEmergencyfAssistancefAct, as
amended (finding A).

Recommendation #2: Disallow $591,928 of unsupported costs for Hurricane Katrina unless the
School Board can provide adequate documentation to support these costs (finding B).

Recommendation #3: Disallow $130,908 ($117,817 Federal share) of unsupported costs for
Hurricane Gustav unless the School Board can provide adequate documentation to support
these costs (finding B).

Recommendation #4: Disallow $2,591 of duplicate costs claimed for Hurricane Katrina
(finding C).

Recommendation #5: Deobligate $853,100 of unused Federal funds for Hurricane Katrina and
put those funds to better use (finding D).

Recommendation #6: Deobligate $9,883, ($8,895 Federal share) of unused Federal funds for
Hurricane Gustav and put those funds to better use (finding D).

Recommendation #7: Direct GOHSEP to submit an accounting to FEMA as soon as possible for
all large projects for which the School Board has completed the approved work and requested
payment (finding D).

Recommendation #8: Direct GOHSEP to ensure that—

•	 FEMA receives information sufficient to close completed School Board projects by June 2013,
•	 The School Board is aware of and follows Federal procurement standards for future
   federally declared disasters, and
•	 The School Board maintains adequate documentation of costs for future federally declared
   disasters (finding E).




   www.oig.dhs.gov                             8	                                   DD-13-07
                           OFFICE OF INSPECTOR GENERAL 

                                 Department of Homeland Security 



                     DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP 


We discussed the results of our audit with School Board officials during our audit and included
their comments in this report, as appropriate. We also provided a draft report in advance to
FEMA, GOHSEP, and School Board officials and discussed it with FEMA officials on June 21 and
October 10, 2012, and with GOHSEP and School Board officials on October 26, 2012.

Within 90 days of the date of this memorandum, please provide our office with a written
response that includes your (1) agreement or disagreement, (2) corrective action plan, and
(3) target completion date for each recommendation. Also, please include responsible parties
and any other supporting documentation necessary to inform us about the current status of the
recommendation. Until we receive your response, we will consider the recommendations to be
open and unresolved.

Consistent with our responsibility under the InspectorfGeneralfAct, we will provide copies of our
report to appropriate congressional committees with oversight and appropriation responsibility
over the Department of Homeland Security. We will post the report on our website for public
dissemination.

Major contributors to this report are Tonda Hadley, Director; Judy Martinez, Audit Manager;
Chiquita Washington, Auditor-in-Charge; and Mary Monachello, Auditor.

Please call me with any questions at (202) 254-4100, or your staff may contact Tonda Hadley,
Director, Central Regional Office, at (214) 436-5200.




   www.oig.dhs.gov                             9                                     DD-13-07
                                  OFFICE OF INSPECTOR GENERAL 

                                           Department of Homeland Security 



                                                                                                                         EXHIBIT

                                            Schedule of Projects Audited

                                                                                                                     Unused
  Project       Net Award     Net Claim                                                           Questioned          Funds
 Worksheet        Amount       Amount           Finding A         Finding B       Finding C          Cost           Finding D
Katrina – DR 1603
    1632        $ 113,716     $     101,028     $            0    $     20,849       $       0    $        20,849    $ 12,688
    1693             78,216          82,794                 0           16,571               0             16,571           0
    2133            133,968         115,892                 0           37,484               0             37,484      18,076
    2152            261,627         261,627                 0           67,552               0             67,552           0
    2159             98,380          27,417                 0                0           2,591              2,591      70,963
    2391            114,181         149,182                 0          140,772               0            140,772           0
    2659             61,820          39,093                 0                0               0                  0      22,727
    3022          2,697,208       1,984,907                 0                0               0                  0     712,301
   3572             794,402           778,057       465,229            308,700                0           773,929        16,345
   Other
  Projects         568,506       573,868                0                    0            0                0                 0
 Subtotals      $4,922,023    $4,113,865        $465,229              $591,928       $2,591       $1,059,748          $853,100
                                                (308,700)                                          (308,700)
    Net                                         $156,529                                            $751,048
Gustav – DR 1786
    698          $ 243,700    $ 238,572          $           0        $ 76,317       $        0    $ 76,317          $    5,128
    780           378,6802      377,537                     0           54,591                0      54,591                   0
   3297             84,680       79,925                     0                0                0           0               4,755
     Other
    Projects        524,966           539,760               0                 0               0                0                0
  Subtotals     $1,232,026    $1,235,794         $          0         $130,908       $        0       $130,908       $    9,883
Ike – DR 1792
    1533        $     1,205       $     1,205    $          0         $       0      $        0       $        0     $          0
     1539             9,015             9,015               0                 0               0                0                0

 Subtotals      $    10,220    $       10,220    $          0         $       0      $        0       $         0    $          0

Grand Totals    $6,164,269    $5,359,879         $156,529             $722,836       $2,591           $881,956        $862,983




2
 We did not request deobligation of $1,143 of unused funds ($378,680–$377,537) because a version to deobligate
unused project funds was processed after the audit performance period ended.


       www.oig.dhs.gov                                           10                                                 DD-13-07
                         OFFICE OF INSPECTOR GENERAL 

                                Department of Homeland Security 



                                                                                  APPENDIX
                                     Report Distribution

Department of Homeland Security
Secretary
Chief Financial Officer
Under Secretary for Management
Audit Liaison, DHS
Acting Chief Privacy Officer

Federal Emergency Management Agency
Administrator
Chief of Staff
Chief Financial Officer
Chief Counsel
Chief Procurement Officer
Director, Risk Management and Compliance
Interim Director, FEMA Louisiana Recovery Office
Audit Liaison, FEMA Louisiana Recovery Office
Audit Liaison. FEMA Region VI
Audit Liaison, FEMA (Job Code G-12-003)

State
Director, Louisiana Governor’s Office of Homeland Security and Emergency Preparedness
Audit Liaison, Louisiana Governor’s Office of Homeland Security and Emergency Preparedness
Louisiana Legislative Auditor

Subgrantee
Superintendent, St. Charles Parish School Board

Office of Management and Budget
Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress
Senate Committee on Appropriations, Subcommittee on Homeland Security
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations, Subcommittee on Homeland Security
House Committee on Homeland Security
House Committee on Oversight and Government Reform




   www.oig.dhs.gov                            11                                DD-13-07
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
